<html>
<title> - REGULATORY REFORM TASK FORCES CHECK-IN: PART II</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


            REGULATORY REFORM TASK FORCES CHECK	IN: PART II

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       INTERGOVERNMENTAL AFFAIRS

                                AND THE

                      SUBCOMMITTEE ON HEALTHCARE,
                   BENEFITS, AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2017

                               __________

                           Serial No. 115-57

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-244 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a>              
              
              
              
              
              
              
              
              
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                      Katy Rother, Senior Counsel
                Michael Koren, Professional Staff Member
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
               Subcommittee on Intergovernmental Affairs

                     Gary Palmer, Alabama, Chairman
Glenn Grothman, Wisconsin, Vice      Val Butler Demings, Florida, 
    Chair                                Ranking Minority Member
John J. Duncan, Jr., Tennessee       Mark DeSaulnier, California
Virginia Foxx, North Carolina        Matt Cartwright, Pennsylvania
Thomas Massie, Kentucky              Wm. Lacy Clay, Missouri
Mark Walker, North Carolina          (Vacancy)
Mark Sanford, South Carolina
                                 ------                                

     Subcommittee on Healthcare, Benefits, and Administrative Rules

                       Jim Jordan, Ohio, Chairman
Mark Walker, North Carolina, Vice    Raja Krishnamoorthi, Illinois, 
    Chair                                Ranking Minority Member
Darrell E. Issa, California          Jim Cooper, Tennessee
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Scott DesJarlais, Tennessee              Columbia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Glenn Grothman, Wisconsin            Bonnie Watson Coleman, New Jersey
Paul Mitchell, Michigan              Stacey E. Plaskett, Virgin Islands
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2017................................     1

                               WITNESSES

Mr. Robert Eitel, Senior Counselor to the Secretary, Department 
  of Education
    Oral Statement...............................................     5
    Written Statement............................................     7
Ms. Rebeckah Adcock, Senior Advisor to the Secretary, Department 
  of Agriculture
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Charles Keckler, Associate Deputy Secretary, Department of 
  Health and Human Services
    Oral Statement...............................................    20
    Written Statement............................................    22

                                APPENDIX

New York Times article titled, ``An Open Door for Pesticide 
  Lobbyists at the USDA,'' submitted by Representative Watson 
  Coleman........................................................    50
Questions for the Record for Mr. Robert Eitel submitted by 
  Representatives Krishnamoorthi and DeSaulnier..................    51
Questions for the Record for Ms. Rebeckah Adcock submitted by 
  Representative Krishnamoorthi..................................    61
Questions for the Record for Mr. Charles Keckler submitted by 
  Representative Krishnamoorthi..................................    66

 
            REGULATORY REFORM TASK FORCES CHECK-IN: PART II

                              ----------                              


                       Tuesday, November 14, 2017

                  House of Representatives,
  Subcommittee on Intergovernmental Affairs, joint 
 with the Subcommittee on Healthcare, Benefits and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:08 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Gary J. Palmer 
[chairman of the Subcommittee on Intergovernmental Affairs] 
presiding.
    Present: Representatives Palmer, Grothman, Walker, Meadows, 
Mitchell, Demings, Krishnamoorthi, DeSaulnier, Norton, Watson 
Coleman, and Kelly.
    Mr. Palmer. The Subcommittee on Intergovernmental Affairs 
and the Subcommittee on Healthcare Benefits and Administrative 
Rules will come to order. Without objection, the chair is 
authorized to declare a recess at any time.
    I now recognize myself for 5 minutes for my opening 
statement.
    First of all, I want to welcome three more agencies to 
discuss the administration's efforts to clean up and reduce the 
country's out-of-control regulatory state. Last month, the 
committee heard from the Department of Defense, the Department 
of Transportation, and the General Services Administration on 
their implementation of Executive Orders 13771 and 13777. These 
executive orders create a process by which agencies must refill 
two regulations for every new regulation it wants to issue.
    The regulatory reform task forces help identify regulations 
for repeal and coordinate the review process within the agency. 
I can say that it is truly impressive to see the focus that the 
agencies have placed on this initiative and the work that is 
being done for the American public and the enthusiasm with 
which it's being conducted.
    At our last hearing, the Department of Defense reported 
identifying over $10 million in savings and is on track to 
review all of its regulations by the end of 2018. The GSA has 
generated nearly 1800 proposals to reduce regulatory burden on 
vendors and the public stating it is optimistic the work of its 
task force will have a significant impact on improving GSA's 
regulatory and operational landscape. And when you hear that 
1800 proposals have been submitted, I would--it sounds like 
it's more than a task force, that there are a lot of people 
engaged in this. That's exactly what we hoped would happen.
    The Department of Transportation shared how its reviews 
have been able to save the American public significant time and 
money without reducing the safety of the Nation's 
transportation system. And by way of example, in fiscal year 
2016, under the previous administration, Department of 
Transportation issued rules opposing an estimated $3.2 billion 
in cost. The rules issued in 2017 have resulted in 
approximately $21.9 million in savings. This is meaningful 
progress. In many cases, it's the task forces and the staff 
that are the driving force and expertise behind the agency's 
reviews and recommendations. And, again, what we've seen in our 
first hearing is not only a commitment to do it but enthusiasm 
for doing it.
    We look forward to hearing how your task forces are working 
with these subject matter experts, many of whom intimately 
understand what is duplicative, outdated, or imposes the most 
burden on the public. I'm also encouraged that my colleagues 
across the aisle identified important areas for review, such as 
agency guidance documents which often have the effect of a 
regulation, and I'm pleased to hear the progress that agencies 
are making in their review.
    I would finally like to echo the praise Chairman Meadows 
bestowed at our last hearing and applaud your efforts and the 
time you've taken testify today. Ultimately, the work you are 
doing with these task forces represent an important first step 
in a necessary culture change with respect to how our 
government works with and not at States, local governments, and 
the American public.
    I now recognize the ranking member of intergovernmental 
affairs, Mrs. Demings, for 5 minutes for her opening statement.
    Mrs. Demings. Good morning, everyone. I'd like to thank 
Chairman Palmer for holding this important hearing today on 
agency regulatory reform task forces. I would also like to 
thank our three witnesses for joining us this morning.
    Regulatory review and reform need not be a partisan 
exercise. President Obama too created a retrospective review 
process in 2011 to review outmoded, ineffective, insufficient, 
or excessively burdensome regulations. But the Trump 
administration, I believe, has not taken a balanced look back. 
The Trump regulatory review process is aimed at removing 
regulations that protect the public, including student loan 
borrowers, those in need of health insurance, and even meat 
processing workers. The regulatory reform task force at the 
Department of Health and Human Services is undermining the 
Affordable Care Act to make it harder for average Americans to 
get health coverage.
    The Department of Health and Human Services has undermined 
the open enrollment period by unnecessarily shortening the time 
for enrollment, reducing the number of individuals providing 
enrollment assistance, and cutting the advertising budget by 90 
percent.
    And even when individuals are able to buy health insurance, 
the regulatory reform task force has proposed allowing States 
slash what the plans actually cover. The task force at the 
Department of Agriculture is speeding up production lines and 
poultry and hog slaughter facilities and reducing the number of 
inspectors required to be onsite. High-speed production lines 
have been shown to increase risk to health workers and 
potentially lead to contamination of meat products consumed by 
American families.
    The task force at the Department of Education is actively 
rolling back regulations meant to protect the next generation 
of K through 12 and higher education students. They are 
obstructing the gainful employment rule meant to ensure that 
college students taking out loans will receive an education 
enabling them to get higher-paying jobs by stopping the 
necessary data collection that would make the rule operate.
    They have halted the borrowers defense rule which created a 
process for defrauded borrowers to apply for loan forgiveness 
to which they are legally entitled and protect American 
taxpayers by requiring certain schools to set money aside to 
cover the cost of loan forgiveness rather than requiring the 
public to bear the burden of fraud.
    The Department of Education has been long rolling back 
several Title IX regulatory guidance documents which permit 
schools to make it much more difficult for victims of sexual 
assault to obtain justice and causing confusion about whether 
transgender students have any legal protections at all. This is 
very, very concerning to me. I hope it's concerning to others. 
And it's certainly concerning to the American public.
    During today's hearing, I hope we can understand the aims 
of the task forces at these three agencies and how they intend 
to protect American families' health, safety, and economic 
security. I look forward to hearing from our witnesses today, 
and we thank the chairman for holding this very important 
oversight hearing.
    I yield back.
    Mr. Palmer. I'll now recognize the ranking member of the 
Subcommittee of Healthcare, Benefits and Administrative Rules, 
Mr. Krishnamoorthi, for 5 minutes for his opening statement.
    Mr. Krishnamoorthi. Thank you, Chairman Jordan and Chairman 
Palmer, for convening this hearing today. I'd also like to 
thank Ranking Member Demings for her friendship and leadership 
and all other witnesses for participating today.
    This is the second hearing our subcommittees have had on 
regulatory reform task forces, and I'm very pleased that we 
have the witnesses here today that we do. In particular, I am 
pleased we have a representative from the Department of Health 
and Human Services.
    My constituents know that having health insurance saves 
lives. It is for this reason that I am deeply troubled by 
recent Trump administration actions that undermine the health 
protections and coverage that millions of Americans have come 
to depend on through the Affordable Care Act, also known as 
ObamaCare. The administration's actions and proposed 
regulations are literally making it harder for Americans to 
receive health coverage.
    The Department of Health and Human Services has cut in half 
the open enrollment period for plans to be purchased on the 
health exchanges, meaning that some individuals will either not 
have health insurance or will be penalized for obtaining 
insurance late. The administration has cut the open enrollment 
advertising budget by 90 percent and is waiving requirements 
that States contact difficult-to-reach individuals, meaning 
that many people living in rural areas may not even know they 
need to sign up for health insurance.
    The administration has refused to provide funds to 
stabilize the healthcare market as required by law. Failing to 
do so has raised premiums and deductibles for families buying 
health insurance on the exchanges and will end up costing 
American taxpayers more in the long run.
    HHS has also permitted all employers to deny female 
employees no copay access to contraception. HHS has proposed 
allowing States to lower standards for essential health 
benefits so that States can engage in a race to the bottom in 
terms of what health insurance plans are required to cover.
    Similarly, the administration has proposed expanding short-
term, limited-duration plans which need not meet the 
requirements of traditional health plans permitting healthy 
individuals to circumvent the ACA's requirements nearly in 
total. HHS has also proposed loosening the medical loss ratio 
so that insurance plans can spend more on advertising and 
executive salaries and less on doctors, nurses, surgeries, and 
medications for those who need it.
    These are just the beginning of all the actions the 
administration is taking to undermine the Affordable Care Act. 
There is an old saying that there is no Republican or 
Democratic way to pick up the trash or fill a pothole. The only 
thing that matters is that you deliver for your constituents.
    I think we should increase inefficiencies and cut 
unnecessary regulations as long as doing so improves the 
quality and availability of healthcare for all Americans. 
Unfortunately, that does not appear to be what the Trump 
regulatory task forces are doing. Instead, in this case, their 
task force is making it harder for Americans to get quality 
health coverage.
    I'm very grateful to the chairman for calling this hearing 
so we can further investigate the reasons behind the 
administrative actions at issue and the policy goals they 
serve. However, I will be asking some important questions about 
the effects of these actions on the availability of healthcare 
coverage on the exchanges. I look forward to discussing this 
and other issues with the witnesses today.
    Thank you, and I yield back.
    Mr. Palmer. I thank the gentleman.
    I'm pleased to introduce our witnesses. Mr. Robert Eitel, 
senior counsel to the Secretary at the Department of Education; 
Ms. Rebeckah Adcock, senior adviser to the Secretary at the 
Department of Agricultural; and Mr. Charles Keckler, associate 
deputy secretary at the Department of Health and Human 
Services. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm the testimony you're about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    The record will reflect all witnesses answered in the 
affirmative.
    Please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    As a reminder, the clock in front of you shows the 
remaining time. Unlike a traffic light, when the light turns 
yellow, you do need to speed up, you have 30 seconds left, and 
red when your time is up. And I'll remind you if that doesn't 
get your attention.
    Please also remember to press the button to turn your 
microphone on before speaking.
    I would now ask Mr. Eitel to give his testimony.

                       WITNESS STATEMENTS

                   STATEMENT OF ROBERT EITEL

    Mr. Eitel. Good morning, Chairman Palmer, Ranking Member 
Demings, Ranking Member Krishnamoorthi, and members of the 
subcommittees. I'm delighted to be here today to present the 
work of the Department of Education in the area of regulatory 
reform and to provide you with an update on its progress.
    Regulatory review and reform are a top priority of 
Secretary DeVos in the Department. It is critical that the 
Department maintain regulations and guidance that are 
understandable, clear, and effective, and that they actually 
serve the interests of students, parents, teachers, and other 
stakeholders. To that end, in April, Secretary DeVos convened a 
task force of career civil servants and noncareer appointees 
appointing as co-chairs a senior civil servant from the Office 
of the General Counsel, who is also our regulatory policy 
officer, and myself, its regulatory reform officer. She also 
directed that the task force conduct itself with three guiding 
principles in mind: Transparency, stakeholder engagement, and 
thoughtful deliberation.
    So with regard to transparency, the task force has taken 
transparency seriously. Indeed, to that end, it has posted on 
the Department website two reports: A progress reported dated 
May 25 and a status report dated October 18, together with 
extensive attachments describing the activity of the task force 
to date. We will continue to provide public updates as the 
Department's regulatory reform work continues.
    With regard to stakeholder engagement, the task force has 
also taken to heart the Secretary's direction to engage the 
public concerning its regulatory review. This public engagement 
is, in fact, a requirement of Executive Order 13777 and, for 
that matter, Executive Orders 12866 from 1993 and Executive 
Order 13563 from 2011.
    So how did the task force accomplish this worthy goal of 
stakeholder engagement? First, the Department published a 
Federal register notice in June asking for public comment on 
which, if any, regulations and guidance to repeal, modify, 
replace, or to keep. The Department provided the public with 90 
days to submit comments to regulations.gov and received in 
excess of 16,000 comments about its regulations and guidance by 
the time the comment period closed on September 20th. The 
Department is presently reviewing those comments.
    Second, at the request of the task force, each principal 
office in the Department engaged in stakeholder outreach to its 
constituency. So for, by way of illustration, the office of 
post-secondary education has public hearings at South Lake 
Community College in Utah and at the Department of Education. 
Other offices conducted their own outreach efforts.
    With regard to the principle of thoughtful deliberation, 
the task force has taken several considered steps to comply 
with the executive orders. The first step that the task force 
took was simply to catalog all of the Department's regulation 
and guidance. That is to ask what do we have in terms of 
regulations and guidance on the books?
    Turning first to regulations, we found that the Department 
maintained in excess of 150 departmental regulations. As part 
of its initial review, four regulations or proposed regulations 
in the area of elementary and secondary education were 
identified for withdrawal, mostly because they were simply out 
of date and related to programs that had not been authorized by 
a Congress. And two regulations in the area of higher education 
were identified for negotiated rulemaking. The Department will 
be withdrawing the elementary and secondary rules in the coming 
months and has begun negotiated rulemaking on the higher 
education rule.
    Turning to guidance. We discovered, to our amazement, that 
the Department maintained an astounding 1,772 policy-oriented 
guidance documents, including Dear Colleague letters, FAQs, 
policy memos and the like. Of these, nearly 600 items were 
simply out of date, some of them dating back to the early 
1980s, and interpreting laws that were no longer in effect or 
relating to long-ago events, such as the flooding in the upper 
Midwest that occurred in 1997.
    Based on recommendations from career staff in each 
principal office and with the approval of career attorneys in 
the office of general counsel, and I would like to stress that, 
based on the recommendations of career staff and after review 
by career attorneys, the Department took steps to withdraw this 
out-of-date guidance to provide clarity to the public. That 
guidance is attached to our October 18th report on the Web.
    With that, I thank you for the opportunity to be here 
today, and I look forward to answering your questions.
    [Prepared statement of Mr. Eitel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. Thank you.
    The chair recognizes Ms. Adcock for her testimony.


                  STATEMENT OF REBECKAH ADCOCK

    Ms. Adcock. Chairman, ranking members, and members of the 
committee, thank you for the invitation to testify before your 
subcommittees today. As a designated regulatory reform officer 
for the Department of Agriculture, I am pleased to share with 
you Secretary Perdue's commitment to fulfilling the President's 
promise to reduce unnecessary regulatory burdens and barriers 
within the Department.
    In line with Executive Orders 13771 and 13777, Secretary 
Perdue is determined to obey the practice of legislating 
through Department regulations and guidance and staying within 
the bounds of congressional authority. USDA embraces the five 
regulatory reform principles of reducing regulatory burdens and 
process barriers, regulating effectively and efficiently, 
promoting due process, providing fair notice and transparency, 
and respecting individual freedoms and property rights.
    Consistent with the executive orders, it's our goal to 
collaborate with the public and identify regulations that are 
creating more problems than they're solving. And to achieve 
that goal, we published a call for public input on July 17th, 
2017, and that lasts through next July 2018. USDA is receiving 
comments during this time during four rounds of review: 
September and November of this year; February and July of next 
year. To date, USDA has received and begun the review of over 
145 comments. And I believe, actually, the number rose a little 
bit over the last a couple of days.
    Last month, the Secretary held a public listening session 
on cutting the red tape where policy experts, nonprofit 
organizations, and industry groups aired their concerns about 
different regulatory burdens. Those event materials should have 
been supplied to you via the committee for your review. USDA 
listened, and with our submissions to the spring agenda 
released in June and those that will be released in the 
upcoming fall unified regulatory agenda, we are taking actions 
to revise and reconsider regulations and, where appropriate, 
deregulate.
    Additionally, as a function of the Secretary's leadership 
of the President's interagency task force on agriculture and 
rural prosperity, USDA held listening sessions with 
stakeholders across the countryside, not aimed solely at 
regulatory reform or barriers. But during his travels through 
rural America, he did hear from producers, business people, 
rural residents, and community leaders on everything from farm 
programs to forest service directives to wetlands and the 
challenges we have there. Some of those ideas and concerns may 
be issues that can be and will be addressed during our ongoing 
review of regulatory and reform process at USDA.
    USDA is a very large organization, and it touches the lives 
of virtually every American in ways they don't ever know about. 
We have nearly 100,000 employees made up of dedicated civil 
servants who believe in the work we do to support the 
production of food, fiber, and fuel, as well as the rural 
communities we support.
    Our internal regulatory reform task force is composed 
almost exclusively of career-level senior staff from each of 
our mission areas, agencies, and offices. During their first 
round over the course of the last summer and early fall, 
preparing for the fall agenda, the task force identified over 
275 potential recommendations aimed at decreasing duplication 
and working more efficiently and effectively as an agency.
    Some recommendations were administrative actions that were 
as simple as making it happen. And they've been already adopted 
and are underway. But over half of the recommendations were 
potential regulatory reforms, many of which will be reflected 
in the upcoming fall agenda from OMB.
    The Secretary views regulatory and operational reform as an 
ongoing process aimed at improving the culture of how USDA runs 
and relates to our customers and constituents. He expects that 
final regulatory decisions will be lawful, fact-based, and 
supported by data collected through sound scientific 
methodology.
    In addition to the President's five principles, we do our 
best to consider how each regulation or action will--reviewed, 
has an impact on jobs and the economy as well as weighing the 
cost, the benefits, the burdens, and the opportunities to 
stakeholders.
    At USDA, we trust in the American people, especially those 
in rural America, to do the right thing for their businesses, 
their communities, and their country. The Federal Government 
must also do our part at minimizing burdens and reducing 
barriers. We know we can do better, and Secretary Perdue and 
the dedicated people of USDA are committed to making that 
happen.
    Thank you again for the opportunity to testify today on 
behalf of USDA, and I look forward to answering your questions.
    [Prepared statement of Ms. Adcock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. Thank you.
    The chair now recognizes Mr. Keckler for his testimony. 
Thank you.


                  STATEMENT OF CHARLES KECKLER

    Mr. Keckler. Thank you. Good morning, Chairman Jordan, 
Chairman Palmer, Ranking Member Krishnamoorthi, Ranking Member 
Demings, and members of the subcommittees. Thank you for the 
opportunity today to discuss the Department of Health and Human 
Services' efforts regarding regulatory reform.
    HHS is committed to improving the regulatory process as 
laid out by the President's executive orders, and our 
Department is always willing to engage with both the members of 
this committee and your staff to help us improve our work.
    On February 24th, 2017, the President signed Executive 
Order 13777. It required the head of each agency to designate a 
regulatory reform officer. This officer would oversee the 
implementation of regulatory reform, initiatives, and policies. 
The order also requires agencies to establish a regulatory 
reform task force. This task force was instructed to evaluate 
existing regulations and make recommendations regarding the 
repeal, replacement, or modification of those regulations.
    The President's February executive order instructed each 
task force to identify regulations that eliminate jobs or 
inhibit job creation and to find regulations that are outdated, 
unnecessary, or ineffective. The task forces must also review 
regulations that impose costs that exceed benefits and evaluate 
regulations that create a serious inconsistency or otherwise 
interfere with regulatory reform initiatives and policies.
    Importantly, this executive order also instructed agencies 
that the task force should seek input and other assistance from 
those entities significantly affected by Federal regulations. 
In particular, agencies should seek input from State and local 
governments, small businesses, and consumers.
    HHS established its regulatory reform task force on April 
13th, 2017. The task force meets once per week to evaluate 
deregulatory proposals from operating and staff divisions 
across HHS using instructions and criteria outlined in 
Executive Orders 13771, and 13777, and OMB guidance documents 
M1721, and M1723.
    The deregulatory proposals are presented to the task force 
for consideration only after they have been evaluated by 
regulatory reform working groups. The working groups are 
designed to offer a forum for the Department's subject matter 
experts to carefully assess deregulatory proposals using 
criteria that complement the goals of the executive orders. 
Each working group meets regularly and consists of 15 to 23 
career staff experts from across HHS.
    Each operating and staff division has a regulatory reform 
officer who is responsible for submitting deregulatory 
proposals once per month to the relevant working groups. The 
deregulatory proposals are then assessed by the working groups 
and ultimately the task force. The RRO is also charged with 
communicating important information on regulatory reform to 
their respective division. Once a month, a call is held with 
the RROs to answer questions and share best practices.
    The regulatory reform process at the Department of Health 
and Human Services encompasses all agency rulemaking including 
the Centers for Medicare and Medicaid Services. CMS is 
committed to putting patients first and easing the regulatory 
burden that is harming the relationship between a patient and 
his or her doctor and other type of healthcare provider.
    Regulations have their place and are important to ensuring 
quality, integrity, and safety in our healthcare system. But, 
if rules are misguided, outdated, or too complex, they can have 
a suffocating effect on healthcare delivery by shifting the 
focus of providers away from patients and toward unnecessary 
paperwork and ultimately increase the cost of care.
    CMS Administrator Verma has launched a review of all 
quality measures, for example, to ensure they are most 
meaningful. Too often, healthcare quality measures focus on 
process and not whether on that process has improved the 
quality or safety of healthcare. Clinicians and hospitals have 
to report an array of measures to different payors. These 
measures are often different, and there are many steps involved 
in submitting them, taking time away from patients. For 
example, across CMS hospital quality reporting programs, in-
patient hospitals report up to 61 quality measures.
    According to the American Academy of Family Physicians, 
some family practitioners have to report nearly 30 measures to 
seven different payors which can lead to less time focused on 
patients and contribute to clinicians' burnout.
    Through CMS' review, we will focus measurement on assessing 
those core issues that are most vital to providing high quality 
care and improving patient outcomes.
    Thank you for your opportunity to testify today. I am glad 
the committee is taking the time to review the complex and 
often overbearing regulatory system that exists in the United 
States.
    Stakeholder feedback is critical to the part of work we are 
undertaking at HHS to reduce regulatory burden. As we reach out 
and listen to providers, patients, experts, and consumers, I 
wish to note that Congress remains our most valued stakeholder. 
Please know that our Department is always ready to discuss any 
regulations that you believe are problematic or those that need 
to be strengthened.
    In preparing for this hearing, we've had several productive 
conversations with both majority and minority committee staff. 
I want to thank them for their thoughtful effort they put into 
this matter. We look forward to working with them even more in 
the future.
    I'm happy to answer any questions you may have.
    [Prepared statement of Mr. Keckler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. Thank you.
    The chair now recognizes the gentleman from Michigan, Mr. 
Mitchell for, 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair.
    I came to the hearing today in admittedly the naive hope 
that we'd actually talk about regulatory improvement and 
streamlining and not simply the political environment. You'd 
think after 10 months I'd learn better.
    My colleagues on the other side of the aisle say they don't 
want to be this political process and then immediately proceed 
to suggest or directly indicate that any action that you take 
to repeal regulations has some stealth political aim rather 
than simply be a belief that regulations need to make sense. In 
fact, it would be nice if they weren't outdated.
    Mr. Eitel, let me start with you. I note you were talking 
about 150 regulations for review and 1772 guidance documents, 
with your colleague letters, policy letters.
    My understanding, having experience with some of that, is 
that those letters aren't subject to a most political 
rulemaking, comment, review. They're issued by the Department, 
and they have the effect of law unless challenged in court, 
correct?
    Mr. Eitel. It is true that guidance is supposed to be 
simply that, that it is guidance from the Department to assist 
our stakeholders in navigating the laws and regulations that 
they have to abide by. Guidance, as a consequence, as it can be 
simply issued by the agency, can be simply withdrawn by the 
agency in accordance with OMB guidance.
    Mr. Mitchell. Right.
    Mr. Eitel. Rules, on the other hand, that is the 
regulations, must go through the rulemaking process. So that 
rule which we wish to promulgate must go through the rulemaking 
process, the MPRM, et cetera. To withdraw it, we have to a 
follow a similar procedure.
    Mr. Mitchell. But one of the challenges with ``Dear 
Colleague'' letters and the like is that the Department takes 
action based on their interpretation of regulations without any 
public comment or discussion, whether that interpretation, in 
fact, is a valid interpretation. And that happens a number of 
times in a variety of agencies, including the Department of Ed.
    How was it that we get beyond a huge number of policy 
guidances and just have some regulations that make some sense? 
How do we reduce that burden?
    Mr. Eitel. I think there needs to be a return to the 
requirements at the APA. And that is when an agency, a Federal 
agency, desires to bind the public with a rule, it should go 
through notice and comment rulemaking, generally, in accordance 
with OMB guidance and the APA.
    Mr. Mitchell. Let's talk briefly, since my colleague wanted 
to make a comment, in my opinion, a political comment, about 
gainful employment and the fact you withdrew the regulation 
pending, an NPRM, and rewriting that regulation. What was the 
rationale of the Department for withdrawing that regulation, 
sir?
    Mr. Eitel. I was not personally involved in the decision to 
commence negotiated rulemaking on gainful employment. I am 
personally recused from that matter, and I've had no role in it 
personally.
    Mr. Mitchell. Sorry. I should have known that.
    Mr. Eitel. I would also add that, based on what I have read 
in the media and the Federal Register, that rule will be 
undergoing negotiated rulemaking, and it would be, I think, 
inappropriate for me to comment anyway on that issue.
    Mr. Mitchell. Well, allow me to take a moment to comment on 
it, which was one of the fundamental problems of gainful 
employment, which my colleagues should know, is that it only 
assessed, theoretically assessed, was questionable data. The 
success rates of private career schools. They failed to provide 
information to consumers or the Department on the success rates 
of universities, colleges, community colleges.
    In fact, it was politically targeted, and the data is 
flawed. That's the underlying reason why we're dealing with 
gainful employment again, or some version of that. And it will 
be an issue we'll deal with in education workforce. So I look 
forward to engaging in that conversation.
    Ms. Adcock, in the few minutes I've got left, for better or 
for worse, you gained more name ID. I'm sorry for you. I truly 
am.
    In the last--since you joined the Department, how many 
meetings with various stakeholders have you had roughly, do you 
think? Estimate. I understand it's an estimate.
    Ms. Adcock. I would really--a dozen, a half--or a dozen or 
two. I--a lot more internal meetings. Most of my effort has 
been focused on regulatory reform and rural prosperity.
    Mr. Mitchell. I understand. And the point I wanted to make 
was that there's no one sitting in this room in a policymaking 
position, including on this dais, that does not spend quality 
time meeting with stakeholders throughout the industry that we 
deal with. Take the transparency, Mr. Eitel and I have met 
previously. I can't tell you the number of education groups I 
met with, agriculture groups I met with, both businesses as 
well as farm bureau and others. The reality is that's part of 
the job.
    So I am sorry that your integrity was questioned by 
comments that you had actually had the temerity to groups that 
you folks would deal with that were in the industry. It 
shouldn't happen, and I'm sorry for you, and welcome to 
Washington.
    With that, I yield back, sir.
    Mr. Palmer. The chair now recognizes the ranking member, 
Mrs. Demings, for her questions.
    Mrs. Demings. Thank you so much, Mr. Chairman. And I feel 
compelled to comment--make a comment regarding my colleague's 
comment. Perhaps he's a little overly sensitive today because 
he finds himself another year older. Today is his birthday. But 
everything's going to be okay, Paul.
    I don't--I have not heard anyone say that any action or any 
effort to remove any regulation is totally unacceptable. That 
is not what we are trying to do here. What we are trying to do 
is make sure that every action that is taken either by Congress 
or by you and your agencies protects the American public. And I 
think that is all of our responsibility, whether it is our 
birthday or not.
    The Obama Department of Education issued the borrower 
defense rule which created a process, as you all know, for 
defrauded borrowers to apply for loan forgiveness to which they 
are legally entitled and protect American taxpayers by 
requiring certain schools to set aside money to cover the cost 
of loan forgiveness.
    Mr. Eitel, was the idea of postponement that we're seeing 
out of the current administration originally your idea? And if 
it was or wasn't, which role did you personally--or what role 
did you personally play in the postponement or the rewrite?
    Mr. Eitel. Congresswoman, as you know, the rule is 
undergoing revision in negotiated rulemaking as we speak. It 
would be inappropriate for me to talk about the subject matter 
of the borrower defense regulation while that negotiated 
rulemaking is occurring.
    Mrs. Demings. Was the postponement your idea?
    Mr. Eitel. To say that it was my idea would not be 
accurate. There is an entire infrastructure in place at the 
Department that deals with borrower defense matters and other 
regulatory matters.
    Mrs. Demings. Are you involved in the rewrite?
    Mr. Eitel. No. That matter is undergoing, negotiated 
rulemaking, as we speak. And I cannot comment on negotiate 
rulemaking that is occurring presently.
    I would also add that the borrower defense rule is being--
or the decision by the Department has been challenged in 
litigation. And for that matter, I also cannot speak on the 
borrower defense regulatory matter.
    Mrs. Demings. So can you answer did you speak with anyone 
at the White House about the rule? Yes or no.
    Mr. Eitel. I cannot speak to that given the posture of 
litigation and given the fact that we are engaged in negotiated 
rulemaking on this issue.
    Mrs. Demings. And please explain your reason again for not 
being able to answer yes-or-no questions about who you spoke 
with about it, whether the Secretary of Education or anyone at 
the White House. What's your rationale again, please, for that?
    Mr. Eitel. The rationale is that the matter is in 
negotiated rulemaking. It would be inappropriate for me to 
comment on the rule in any way, shape, or form. And in addition 
to that, the rule--the decisions of the Department on this 
matter have been challenged in litigation, and there is ongoing 
litigation proceeding as we speak in Federal court. I cannot 
comment further.
    Mrs. Demings. Can you tell me, between February 13th and 
April 5th, when the OMB report came out, were you employed at 
Bridgepoint Education?
    Mr. Eitel. I was on unpaid leave of absence from 
Bridgepoint Education during that time----
    Mrs. Demings. So you were employed at Bridgepoint, if you 
were on a leave of absence.
    Mr. Eitel. That's correct.
    Mrs. Demings. You were still employed.
    Mr. Eitel. It was an unpaid leave of absence from 
Bridgepoint Education.
    Mrs. Demings. But you were employed by Bridgepoint 
Education.
    Mr. Eitel. I was on an unpaid leave of absence from 
Bridgepoint Education. And to explain further, I consulted with 
the Department's ethics officer prior to coming to the 
Department. I met with her, received advice, and complied with 
that advice fully and completely.
    Mrs. Demings. And what was the advice that you received?
    Mr. Eitel. That I could come to the Department, that I 
could work at the Department on an unpaid leave of absence and 
recuse myself from matters--particular matters involving 
specific and prior employers that I worked for in the past.
    Mrs. Demings. Okay. And how long were you in that unpaid 
status? Do you remember?
    Mr. Eitel. Well, to be clear, I was in an unpaid status 
from Bridgepoint Education.
    Mrs. Demings. Right. How long were you----
    Mr. Eitel. I joined the Department on February 13th----
    Mrs. Demings. Okay.
    Mr. Eitel. --and formally resigned in early April.
    Mrs. Demings. Okay. Thank you so much, Mr. Chairman. I 
yield back.
    Mr. Palmer. The chair now recognizes the gentleman from 
North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for 
conducting this hearing. And as we look at regulatory reform, I 
guess--is it Eitel?
    Mr. Eitel. Eitel, sir.
    Mr. Meadows. Eitel. Okay. All right. That's a little tough 
for a North Carolina Member to get it correct on the first 
drop.
    So, Mr. Eitel, let me come to you. If we're looking at 
regulatory reform, and as you have just demonstrated to my 
colleague opposite, during negotiations it would be 
inappropriate to talk about the negotiations that go back and 
forth, will Congress be able to review that, any 
recommendations that you made coming back to Congress in the 
formal rulemaking process? Is there a statute that would allow 
us to do that?
    Mr. Eitel. Not to my knowledge. In connection with 
negotiated rulemaking under the----
    Mr. Meadows. But when you make your final decision, does 
that not come back to Congress?
    Mr. Eitel. Well, there is a notification requirement.
    Mr. Meadows. Right. And so we would still have a review 
period as outlined for our congressional responsibility; is 
that correct?
    Mr. Eitel. I believe so, under the congressional review act 
sir.
    Mr. Meadows. All right. So let me go back to guidance, 
because you talked about guidance a little bit ago, and that's 
one of those areas that I have, I guess, a keen sense of 
guidance being offered that is never noticed to Congress and 
yet has the same effects of a rule. How many would you say 
guidance is out there? How many different guidance memos would 
be out there that have the effect of a rule in your particular 
agency?
    Mr. Eitel. Well, we did do a canvass at the beginning of 
the process, and we discovered that we had 1,772 pieces of 
guidance in the form of ``Dear Colleagues,'' policy memos, 
FAQs, and the like. The question is to what extent do they have 
the force of law.
    Mr. Meadows. Well, but we know that they, many times, do 
have the force of law, because we've actually had that 
litigated when you--in their juris prudence that would suggest 
many times the guidance has the enforce of a rule.
    Mr. Eitel. That is correct, sir. The guidance is----
    Mr. Meadows. So out of those 1700-plus guidance memos and 
Dear Colleagues, how many of those were noticed to Congress?
    Mr. Eitel. I do not know that for sure, but I would 
imagine----
    Mr. Meadows. Can you get that back to us?
    Mr. Eitel. Yes, I think so.
    Mr. Meadows. You would think there would be none, right?
    Mr. Eitel. Yes.
    Mr. Meadows. So if it has the effect of being a rule, and 
it wasn't noticed to Congress, would you not see a problem with 
that from a standpoint of being enforced as a rule? Would you 
not see that as a way to get around the rulemaking notice 
provision that is in statute?
    Mr. Eitel. It could present a problem to the agency.
    Mr. Meadows. Because you could just pass one rule and do 20 
guidance memos, and Congress would never be able to weigh in. 
Do you not see that as a problem?
    Mr. Eitel. I do see that as a problem.
    Mr. Meadows. Okay. Can you get that to this committee in 
terms of how many guidance memos were not noticed?
    Mr. Eitel. Yes.
    Mr. Meadows. Okay. Ms. Adcock, can you do the same for 
USDA?
    Ms. Adcock. Yes, sir.
    Mr. Meadows. All right. So would you see it as a problem?
    Ms. Adcock. Yes, sir. We are in the process of cataloging, 
understanding better where our breadth of guidance documents 
are throughout the agency, yes, sir.
    Mr. Meadows. So what would you estimate your guidance 
documents, the breadth of that would be?
    Ms. Adcock. I----
    Mr. Meadows. More than 1700 that Mr. Eitel has----
    Ms. Adcock. I would think less. I would think less.
    Mr. Meadows. You would think less. Okay.
    Mr. Keckler.
    Mr. Keckler. Yes, sir.
    Mr. Meadows. You probably figured I was coming down the 
road, so I guess you prepared for this answer.
    All right. So----
    Mr. Keckler. Sir, we have begun a review of the extensive 
number of guidance documents within the Department. But I, as I 
sit here today, am not in a position to give you an estimate or 
a number, but we can certainly get back to you with----
    Mr. Meadows. What's a reasonable amount of time to get that 
to this committee?
    Mr. Keckler. With regard to how many----
    Mr. Meadows. Yeah. I mean, if you've started your canvass, 
is it going to go on for 2 years or--I mean, can you get that 
number to this committee in the next 45 days?
    Mr. Keckler. We can make a determined effort whether----
    Mr. Meadows. You're starting to sound like a politician. I 
need a time.
    Mr. Keckler. We'll give you an answer, with an estimate, in 
90 days.
    Mr. Meadows. With an estimate of what?
    Mr. Keckler. Of our policy documents.
    Mr. Meadows. I tell you what.
    Mr. Keckler. Okay.
    Mr. Meadows. Let's change this.
    Mr. Keckler. Okay.
    Mr. Meadows. Within 14 days, get to this committee your 
plan of action on how you're going to address that request. How 
about that?
    Mr. Keckler. Yes, sir.
    Mr. Meadows. All right. Thank you.
    I yield back.
    Mr. Palmer. The chair now recognizes the gentleman from 
Illinois, Mr. Krishnamoorthi, for 5 minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman.
    I'm deeply worried that actions that HHS have taken leading 
up to and during this 2018 open enrollment season will cause 
more Americans to go without health coverage. From cutting the 
funds for outreach to cutting the open enrollment season in 
half from 90 to 45 days, to shuttering healthcare.gov every 
Sunday from 12:00 a.m. To 12:00 p.m. During the open enrollment 
season, one could be forgiven for assuming that HHS wants fewer 
Americans to have health insurance. I'm pleased that Ranking 
Member Cummings has taken a keen interest in this and that we 
have been investigating the, quote/unquote, ``maintenance 
windows'' that are going to be happening every Sunday and their 
affect on American's ability to enroll in health coverage.
    Mr. Keckler, are you aware that, on September 29th, Ranking 
Member Cummings and I sent a letter to HHS requesting documents 
relating to the decision to schedule website maintenance 
downtime during open enrollment?
    Mr. Keckler. No, sir, I'm not personally aware of that 
letter.
    Mr. Krishnamoorthi. Were you aware that, on November 3rd, 
HHS officials briefed us and said they would provide the 
documents that we requested within 1 week?
    Mr. Keckler. No, sir, I was also not part of that process.
    Mr. Krishnamoorthi. Are you aware that, on November 13th, 
HHS finally replied and sent a letter that failed to provide 
the documents we had requested?
    Mr. Keckler. No, sir, I was not aware of that.
    Mr. Krishnamoorthi. In fact, what they provided us were 
these four sheets of paper, the sum total of their document 
production. These four sheets of paper are insufficient. 
They're the only data they provided in yesterday's letter. I'm 
not sure if you can see it from here, but this is hardly the 
full data that we requested regarding the decision to 
maintain--quote/unquote, maintain the website and take it down 
for 12 hours every Sunday during open enrollment. In fact, one 
of these pages is nothing but a screenshot that tells people 
the website is down without even telling them when to come back 
to enroll. This is unacceptable.
    Mr. Keckler, are you aware of CMS administrator Verma's 
claim on November 7th that increasing Medicaid enrollment 
numbers was a, quote/unquote, ``hollow victory?''
    Mr. Keckler. I'm not--I did not participate in that 
statement or I have seen a report in the media to that effect.
    Mr. Krishnamoorthi. Do you agree with her that more 
Americans having access to healthcare via increased Medicaid is 
a ``hollow victory?''
    Mr. Keckler. I'm not certain what that--what her meaning 
was in that statement.
    Mr. Krishnamoorthi. Okay. What is the plain meaning of that 
to you? What does ``hollow victory'' mean to you, and would you 
characterize increased Medicaid enrollment as a hollow victory?
    Mr. Keckler. That's not a term that I would use as I'm not 
sure precisely what is meant by it.
    Mr. Krishnamoorthi. And that's not a term I would use 
either. I agree with you. And I hope that you admonish 
Administrator Verma from using terms like that to describe 
increased Medicaid enrollment numbers.
    Mr. Keckler, I have to say that I profoundly disagree with 
Administrator Verma that more Americans having access to 
healthcare through Medicaid is a hollow victory. It's not a 
hallow victory for people who no longer have to decide between 
paying for their groceries or paying for their healthcare. It's 
not a hollow victory for people who are finally able to get 
treatments for chronic debilitating conditions.
    I've never met a beneficiary of the expanded Medicaid 
expansion program who called it a hollow victory to me. In 
fact, they thought that it was life-changing. And I'd be happy 
to introduce them to you or to Administrator Verma. Mr. 
Keckler, I have one final question. Is it now the policy of HHS 
that fewer Americans should have health coverage through the 
Affordable Care Act?
    Mr. Keckler. I'm not familiar with any such policy.
    Mr. Krishnamoorthi. It's a--so you're saying the answer is 
no?
    Mr. Keckler. Not to my knowledge.
    Mr. Krishnamoorthi. I find it hard to square that sentiment 
that you just uttered with the very real actions taken by HHS 
this year, actions that will harm people and that are harming 
people. If you want to increase health coverage, HHS should not 
have cut the ACA outreach budget, should not have cut the open 
enrollment period in half, and should schedule website 
maintenance in a way that does not interfere with people's 
ability to purchase health coverage.
    I yield back.
    Mr. Palmer. The chair now recognizes the gentleman from 
Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. Yeah, I've got some general questions for 
you.
    How many recommendations has your task force reported, or 
your agency had to repeal or amend duplicative, outdated, or 
unnecessary regulatory actions or other policies? Do you just 
have a general number, any of you? Any of you. We'll go to Ms. 
Adcock first.
    Ms. Adcock. Yes, I'll start.
    Yes. We identified, through the regulatory reform task 
force, over 275 broad actions, and about half of those were 
regulatory. And we're getting ready to dig back in again and 
sort through public comments and dig deeper in what we consider 
round two. So that was our first go at it.
    Mr. Grothman. Do you other folks have any----
    Mr. Eitel. As for the Department of Education, we have 
identified, as of today, six regulations for deregulatory 
action. We have additional items pending on our fall agenda 
that is under review with OMB for the fall. And in addition to 
that, we have withdrawn approximately 600 out-of-date guidance 
documents of various types.
    Mr. Keckler. The Department of Health and Human Services, 
our regulatory reform task force gets sort of a--only some of 
the overall regulatory activity that goes on. But thus far, the 
task force itself has made 34 recommendations after receiving 
reports from our working groups for deregulatory actions at 
this time.
    Mr. Grothman. Okay. I'll ask you to respond to something 
that could be criticism to what we're doing here, or a concern 
I have. Obviously, they're good regulations--I--``good 
regulations''--but there are mandatory regulations in the sense 
that Congress passes bills that demand interpretation. And so 
you publish new regulations that actually are less burdensome 
on business, less burdensome on other areas in Government. And 
I don't necessarily think that's a bad thing.
    Could you give me just general statements as far as when 
you withdraw regulations or begin to promulgate new regulations 
as to what you're aiming at. I guess what I'm getting at, like 
I said, is sometimes the only way to deal with a bad regulation 
is to not repeal it because then maybe you offer the underlying 
statute but to improve it or make it less burdensome.
    And I guess I'd just like a comment from each of you as how 
you're approaching regulations or what you plan on doing. Like 
Mr. Eitel, I don't know if I got that right, you know, a lot of 
us feel the Department of Education is really kind of a thorn 
in the side of local school districts. But your guiding 
principles as far as what principles you use to get rid of 
regulation or promulgate new ones.
    Mr. Eitel. I think that the--there's a number. I think the 
first is legal sufficiency. That is our reacting with the 
intent of Congress based on legislative language and the 
history and the intent of the law, are we going beyond the law.
    Second is to provide clarity and better understanding for 
stakeholders, whether it be a State educational agency or a 
local school district or an educational institution, parents, 
students, and teachers.
    I think the third would be to examine what is the cost of 
the regulation and what is the benefit to the public.
    Mr. Grothman. Okay. Any others?
    Ms. Adcock. We have followed very closely with the 
principles laid out by the President's relating to due process, 
many of the considerations the Department of Education has 
mentioned. We also, at USDA, at the behest of the Secretary, 
are looking into very strongly the cost, the benefits, the 
barriers, the opportunities, what is the impacts on jobs and 
the economy, how does it serve the rural constituents and 
customers that we have through our various agencies, everywhere 
from the Forest Service to our frontline offices at NRCS and 
FSA and our food and nutrition program.
    So we are very going through and trying to be very 
thoughtful and using--we're relying very heavily on the 
expertise of the folks that have been at the agency for a long 
time to weigh what they know about how we can do better and--
whether it's operational, regulatory, or otherwise. And as you 
mentioned, it's not always remove the regulation. Often it is 
modernize it or revise it or combine it and find deficiencies 
in those manners.
    Mr. Grothman. Okay. I'm almost out of time, so I'm going to 
jump back to Mr. Eitel.
    Have you looked at all at the special ed regulations, which 
I think can kind of be unintentionally damaging to some 
children? Is that something you'd review over there or try to 
read to give more flexibility to the local school districts?
    Mr. Eitel. We are looking at that, but we have not made any 
final decisions on how to proceed.
    Mr. Grothman. Thank you for letting me go over.
    Mr. Palmer. The chair now recognizes Mrs. Watson Coleman 
for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I am very concerned about the lack of disclosure around 
these task forces at many of the agencies. The task forces are 
making major decisions about the fate of the health, safety, 
and the education of Americans. For example, it is very 
important that the public know who is on the task forces. The 
perspectives and the backgrounds of individual members may 
determine whether a regulation stays or it goes.
    Mr. Eitel, the names of the Department of Education's task 
force members is on your website. Why did the Department decide 
to put the name names online?
    Mr. Eitel. For purposes of public disclosure, so that the 
public would know who is on our task force.
    Mrs. Watson Coleman. Thank you. Good answer.
    From today's New York Times, this is an article entitled 
``An Open Door for Pesticide Lobbyist at the USDA.''
    Mr. Chairman, I ask unanimous consent to insert this 
article into this record.
    Mr. Palmer. Without objection, so ordered.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I quote from that article: At a private meeting in 
September, congressional aids asked Rebeckah Adcock, a top 
official at the Department of Agriculture, to reveal the 
identities of the people serving on the deregulation team that 
she leads at the agency. Ms. Adcock, a former pesticide 
industry executive, brushed off the request.
    Ms. Adcock, you are here before the oversight committee, 
which is a principal investigative committee of Congress, and I 
do have a question for you.
    Who are the members of the regulatory task force that you 
lead? What are their respective backgrounds, and what is their 
status as a political appointee or a civil servant?
    Ms. Adcock. My understanding is from the committee, and I 
apologize if your staff thought that I brushed off that 
request. That was not my intention. My intention was to share 
with them that we had not made the list public. We hadn't asked 
the members whether that would be acceptable, and then I would 
take that back to see if we could share that list. So if there 
was a misunderstanding, I apologize for that.
    Mrs. Watson Coleman. Thank you. Have you gone back to the 
task force and discussed with these Federal employees whether 
or not it is appropriate to release their names and their 
backgrounds and their status?
    Ms. Adcock. It is my understanding that that list has been 
forwarded to the committee through our office of congressional 
relations.
    Mrs. Watson Coleman. When was that?
    Ms. Adcock. I--it could have been in the last few days. I'm 
not certain.
    Mrs. Watson Coleman. All right. Mr. Chairman.
    Ms. Adcock. But I'm happy--the bottom line is you will be 
provided a name. I can give you a brief summary. It's 
approximately 40 people, almost exclusively composed of career 
staff throughout USDA.
    Mrs. Watson Coleman. I'm very interested in that list. Mr. 
Chairman, I would expect for our side to receive that, to share 
that information with us as soon as possible.
    Mr. Palmer. It will be.
    Mrs. Watson Coleman. Thank you.
    Mr. Keckler, are the names of the HHS task force members 
available on its website?
    Mr. Keckler. No ma'am.
    Mrs. Watson Coleman. Why not?
    Mr. Keckler. It's not--this is an internal group, the 
deliberative group. We normally thus far have handled most of 
the outreach via the component agencies of HHS, with a 
stakeholder outreach.
    Mrs. Watson Coleman. Well, Mr. Keckler, let me just say to 
you that this is a particularly unique situation, and the 
decisions that they would be considering have a tremendous 
impact of both positive, I hope, and negative on the 
constituencies that I define as the people of the United States 
of America.
    So, given that this may be an internal sort of operational 
situation, it is vitally important that you share this 
information with the public so that we know the kind of people 
and the background and the things that they would be 
considering, because we do know that who you are will affect 
how you react to certain things.
    Can you possibly make those available to us?
    Mr. Keckler. Yes, ma'am. We'll be happy to send that list 
to you. In my written testimony today, the composition of the 
task force, in terms of the positions of persons, is provided, 
but we can also send you a list of the current members.
    Mrs. Watson Coleman. Yes. And you know what, this request 
is not only for your three agencies in general, Mr. Chairman. 
We should ask each of the departments to share this information 
with us. These are very important considerations that are going 
to take place, and transparency is very important as well as 
ensuring that there are no conflicts of interest anywhere in 
the deliberations of these issues. And sometimes that whole 
issue of conflict of interest has arisen very much in this 
current administration.
    With that, I thank you, Mr. Chairman. I yield back.
    Mr. Palmer. I thank the gentlelady.
    The chair now recognizes the gentlelady from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    I'm deeply concerned about the way the Department of Health 
and Human Services is treating the neediest among us. Medicaid 
was created to ensure that the Nation's poor had access to 
quality healthcare.
    A provision of the Social Security Act, Section 1115, gives 
the HHS Secretary the authority to approve State experimental, 
pilot, or demonstration projects that are, quote, ``likely to 
assist in promoting the objectives of the Medicaid program.''
    This administration has received a number of 1115 waiver 
requests, and I am concerned that not all of the proposed 
projects will actually help ensure that Medicaid recipients get 
the healthcare they need.
    Mr. Keckler, what are the objectives of the Medicaid 
program?
    Mr. Keckler. That's beyond--it's sort of general sort of 
programmatic goals. That's not an area that I've been briefed 
on for today.
    Obviously, it's designed to provide healthcare for low-
income Americans.
    Ms. Kelly. Well, for example, some States have proposed 
imposing work requirements on Medicaid recipients.
    Does imposing a work requirement promote the objective of 
ensuring all income-eligible for Medicaid receive health 
insurance?
    Mr. Keckler. I think that my answer to that would be I can 
take that back for something that can be analyzed by our 
subject matter experts in that and their views, and we can 
answer that in a fuller way in a written form.
    Ms. Kelly. I look forward to your answer.
    Also, some States have proposed adding premiums. This means 
that individuals on Medicaid who are often already below the 
poverty level would pay for health insurance that should be 
their right.
    Does adding premiums promote the objective of ensuring all 
people income-eligible for Medicaid receive health insurance?
    Mr. Keckler. Again, ma'am, I think that a better answer for 
that would be provided in terms of a policy analysis and answer 
that we can provide to you in a written form.
    Ms. Kelly. Well, I have another one for you. Some States 
have proposed limiting retroactive eligibility, meaning that 
States will not provide Medicaid for months prior to the month 
in which the individual is enrolled.
    Does limiting retroactive eligibility promote the objective 
of ensuring all people income-eligible for Medicaid receive 
health insurance?
    Mr. Keckler. Again, I think a better answer could be 
provided to you by those that are--have a deeper familiarity 
with the policy elements.
    Ms. Kelly. Is that true for the case of States that have 
proposed drug screening for applicants? Are you going to give 
me the same answer?
    Mr. Keckler. Yes, ma'am.
    Ms. Kelly. Okay. Well, thank you.
    Just yesterday, President Trump announced Alex Azar to be 
the new HHS Secretary. It's been reported that Mr. Azar has 
been critical of the ACA's Medicaid expansion and has proposed 
block granting the program in the past.
    I hope, if confirmed, he will not attempt to undermine 
Medicaid. We should not make it more difficult for Americans to 
obtain life-saving health insurance, which is a right.
    Thank you, and I yield back.
    Mr. Palmer. I thank the gentlelady.
    I would like to enter into the record a letter from the 
Department of Health and Human Services to our member Mr. 
Krishnamoorthi, and point out that the downtime that was 
scheduled on November 5th for maintenance was completed before 
5 a.m., so it was down less than 5 hours.
    And on Sunday, November 12th, the downtime from scheduled 
from midnight to noon, but no maintenance was needed and no 
downtime occurred.
    So it will be entered into the record.
    Mr. Palmer. The chair now recognizes the gentlelady from 
the District of Columbia, Ms. Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I have concerns, which I hope can be cleared up without 
referring everything back. I think we're supposed to be talking 
with people who can give us the information.
    And these are the changes that are being made, Ms. Adcock, 
at USDA about the line limits, the speedups. A study has found 
that three-quarters of those who work on these--under these 
fast speeds believe that their jobs are dangerous.
    As I look at what these speeds are, I must say I can't 
blame them as I try to imagine working, for example, under what 
most--where most poultry plants now operate, up to speeds of 
140 birds per minute. But then some plants operate under 
another system. Apparently, it's called the New Poultry 
Inspection System, NPIS. And that allows plants to operate not 
at 140 birds per minute, but 175 birds per minute. And in 
addition, most Federal inspectors are replaced with company 
workers under this NPIS system. I don't understand that at all.
    This past September, the National Chicken Council filed a 
petition with USDA's Food Safety and Inspection Service to 
allow the remaining plants--and this is getting incredible--the 
remaining plants to operate under this NPIS system and 
increasing the line speeds without any upper limit.
    Am I still living in the United States of America? Are 
these figures coming out of some Third World country? Ms. 
Adcock, will the Department act on this petition to allow some 
plants to operate under this NPIS system, increasing the line 
speeds without any upper limit? Will the Department act on this 
petition?
    Ms. Adcock. I am not personally aware of the petition, and 
I don't know that I can tell you today what its status is, but 
I am certainly happy to check in and----
    Ms. Norton. You know, Mr. Chairman, I don't know if the 
administration is sending us people who deliberately can say to 
us, we don't know the answer to your question, but this is not 
how the Oversight and Government Reform Committee has ever 
operated before, to allow people to say, I'm sorry, I don't 
know.
    Now, this is a perfectly obvious question of systems and 
petitions that are before the agency now, and you haven't heard 
of this?
    Ms. Adcock. This is not an issue which has come before my 
desk and so I'm not personally aware of it, but I will 
certainly get back to you with a response.
    Ms. Norton. Well, I guess you will. What else can you say 
if you are unaware. And I'm amazed that--what is your position 
again, Ms. Adcock?
    Ms. Adcock. I am a senior adviser, working on regulatory 
reform and rural prosperity.
    Ms. Norton. And you never heard of this?
    Ms. Adcock. I am not familiar with this particular 
petition, because it's not in the subject matter----
    Ms. Norton. All right. Let me ask you this, since you claim 
ignorance, but you know about these speeds. Given your 
expertise, should the Department grant waivers to say you can 
operate at any speed you like?
    Ms. Adcock. I'm not familiar with the waiver, so I don't 
know the details. I am familiar with the regulatory proposal on 
line speeds. I'm not familiar with the petition.
    Ms. Norton. No, I'm not asking you that. I'm asking you 
whether or not--since you said you didn't know anything, so I'm 
not going to ask somebody who tells me I know nothing.
    But I'm asking you, in your expertise, should a waiver ever 
be granted to increase speeds without any upper limit?
    Ms. Adcock. I simply don't have the expertise to answer 
that question in either direction. It would be a disservice to 
those who----
    Ms. Norton. What is your background, Ms. Adcock?
    Ms. Adcock. I have primarily worked on agriculture and 
environmental issues.
    Ms. Norton. Yeah. Well, that's what these are.
    Mr. Chairman, I have to say I've heard, you know, these 
answers, these I don't know answers. I hope you will not 
tolerate this, because I'm telling you you're having hearings 
where--for the Oversight and Government Reform Committee where 
you're allowing people to come forward without any information.
    And I just want to protest absolutely that the Department 
would send us people who could get away with saying I don't 
know anything and maybe I can get back with you. And, Mr. 
Chairman, who knows whether those matters will ever be made 
public. I know you would want to make them public, but the 
hearing is over.
    So I'm going to cease asking Ms. Adcock any questions. 
She's having the same responses that Mr. Keckler had: We'll get 
back to you. We've been sent to respond to you, but please know 
that we know nothing, even though we are the responsible 
officials in the Department.
    And I yield back.
    Mr. Palmer. I thank the gentlelady.
    I think one of the reasons why the witnesses have been 
unable to answer some of the questions is that their scope of 
responsibility is in regard to the task forces. It was not 
policy. So I think some of the questions that have been asked 
have been outside their area of expertise and outside the area 
that they're focused on.
    So I think that it is inappropriate to focus on a witness' 
background instead of their subject matter. I think it's 
inappropriate to focus on things outside their area of 
expertise when they've indicated that they don't have expertise 
in that area or don't have knowledge of it.
    I think the purpose of this hearing is to talk about the 
work of the task forces. And in that regard, I want to 
recognize myself for 5 minutes for my questions.
    Mr. Eitel, you said you received over 16,300 public 
comments. What would you say was the reform that was most often 
recommended?
    Mr. Eitel. Probably the area of civil rights and Title IX.
    Mr. Palmer. Civil rights and Title IX. And then I would 
assume that the task force made that a priority to address 
those areas?
    Mr. Eitel. It had--yes. It was actually a personal priority 
of the Secretary, given the delicate issues in play, 
particularly with the Title IX guidance that we recently 
rescinded.
    Mr. Palmer. In regard to the task forces, for all three of 
you, I direct this question.
    When you're looking at regulations and you're looking at 
what's obsolete, what's duplicative or contradictory, are you 
also taking into consideration whether or not a program has 
been reauthorized?
    Mr. Eitel, I'll begin with you.
    Mr. Eitel. Yes. Indeed, we are in the process of 
withdrawing three regulations for programs that have not been 
reauthorized by Congress.
    Mr. Palmer. How about you, Ms. Adcock?
    Ms. Adcock. Yes.
    Mr. Palmer. Mr. Keckler?
    Mr. Keckler. That's certainly a concern of the Department 
generally. I have not heard it discussed in those terms in the 
task force.
    Mr. Palmer. Okay. Sticking with you, Mr. Keckler, there are 
numerous concerns raised about FDA regulations regarding access 
to new drugs. Is the task force looking at FDA regulations that 
are outdated or unnecessary that impede access to new drugs, 
particularly experimental drugs?
    Mr. Keckler. Yes, sir. The FDA working group has that as a 
general concern and thus far has--we have worked particularly 
on looking at access to some generics in that space. But that's 
an overall concern over at the FDA.
    Mr. Palmer. So you say they've been looking at it. Have 
they identified any outdated or duplicative or overly 
burdensome regulations or guidance to date?
    Mr. Keckler. Yes, sir. In my written testimony, we have 
discussed briefly some of the goals here to improve the access 
to generics. FDA is reviewing how rules concerning new drugs 
are being used in ways that may create obstacles in the timely 
entry of generic competition, and they are making sure that the 
current policies aren't misused in ways that would thwart the 
competition that Congress intended when it created the modern 
generic drug framework. So that's an area where we are already 
working.
    Mr. Palmer. Okay. Just in general, can you give me an idea 
of how many regulations have been recommended for removal, or I 
guess you've identified regulations that you could make less 
complicated, less burdensome, Mr. Eitel?
    Mr. Eitel. Well, as I've said, we are engaging in 
negotiated rulemaking on borrower defense and gainful 
employment. And the hope is that there will be a better rule 
that better protects students and also provides due process to 
institutions. That would be two primary initial examples.
    Mr. Palmer. But I hope you got more than two.
    Mr. Eitel. We do. Those have a large impact. We are looking 
at our guidance in the Office of Elementary and Secondary 
Education.
    Please understand that we are--we have a duty to go through 
the comments that we've received. And we are organizing those, 
studying those, and developing priorities, based on the 
comments we receive from the public.
    Mr. Palmer. Well, I want to encourage you to continue to do 
that. I think the task forces have done good work, and I think 
it's being conducted the way it should be conducted.
    Ms. Adcock, do you have an idea of how many regulations 
that the Department of Agriculture has identified that could be 
eliminated or made less complicated?
    Ms. Adcock. Our early--our first round, because we're going 
at this for over a year. We've divided it up. We've identified 
probably somewhere in the area of 140 possible options, and 
then we're working through those methodically. As you know, 
there's many requirements: The APA, OMB guidelines, those sorts 
of things.
    So when you identify an action that you think is likely for 
revision or deregulation, you have to go through many steps, 
including often certain requirements for, depending on where it 
is in the process, public comments and all those sorts of 
things. So those things inherently mean that you're not 
automatically deregulating, you're not automatically revising.
    We have had three to four very significant deregulatory 
actions that have been announced over the course of this summer 
up to as early as a few days ago, and there will be a 
significant number more that you will see reflected in the fall 
regulatory agenda when it is released by OMB.
    Mr. Palmer. Mr. Keckler, I know you guys are working on 
things. I just want to emphasize that in regard to the 
Department of Agriculture and HHS, I grew up in rural northwest 
Alabama on a farm, so I really want to do what we can to 
improve the opportunities for people in rural areas, 
particularly in giving people access to healthcare. So I really 
appreciate the work that's being done.
    I want to emphasize that the purpose of this hearing is to 
hear from you about the progress that is being made to improve 
the ability of all Federal agencies to serve the American 
public efficiently and with the least burdensome rules and 
regulations. That's the purpose of the task forces. That's the 
purpose of these hearings, to hear a report back from you.
    It has been reported that regulations cost the average 
American family $15,000 per year. That's--you know, for a 
household earning $70,000 a year, that's over 20 percent of 
their average income. It's more than they spend on practically 
everything else in their budget. This cost falls 
disproportionately on lower income households like the one I 
grew up in, which makes the work of this task force even more 
relevant and important.
    And I'd like to believe that making our regulations 
effective, yet less burdensome, would be and should be a worthy 
bipartisan objective.
    I'd like to thank the witnesses for their testimony today.
    And I remind the members of the committee the hearing 
record will remain open for 2 weeks for any member--the chair 
recognizes the ranking member Mrs. Demings for one more 
question.
    Mrs. Demings. Yes, just one more. Thank you so much.
    Just a point of clarification from Ms. Adcock.
    Regarding the roster of the task force members, when did 
you submit that roster to----
    Ms. Adcock. I did not submit it. I think our Office of 
Congressional Relations submitted it very recently. But we will 
make sure we get it to you----
    Ms. Demings. Do you know----
    Ms. Adcock. --the first time we have it.
    Mrs. Demings. Before the hearing, though, was it submitted? 
Because I'm just receiving some conflicting information and I'm 
just trying to make sure we----
    Ms. Adcock. I did not send it, so I don't want to misinform 
you. But if you don't receive it, contact me personally and I 
will make sure you get it.
    Mrs. Demings. So you aren't sure when it was submitted?
    Ms. Adcock. I'm not sure, no, ma'am.
    Mrs. Demings. Okay. Thank you.
    Mr. Palmer. Just for clarification, we do have that, and it 
has been shared with the members of the committee.
    With that, the hearing record will remain open for 2 weeks 
for any member to submit a written opening statement or 
questions for the record.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:28 a.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
